i

C—3

No.

Cl
1
cJ k
I’1-': P

IN THE

n

L/j ^

r'-

, «; '#lL

SUPREME COURT OF THE UNITED STATES

FILED
APR IS 2021
WAEL LASHEEN PETITIONER
vs
OHIO SUPREME COURT RESPONDENT

ON PETITION FOR AWRIT OF CERTIORARI TO
OHIO SUPREME COURT

PETITION FOR WRIT OF CERTIORARI

WAEL LASHEEN PRO SE
PO BOX 202555
CLEVELAND, OHIO 44120
TEL: 216-414-8759
EMAIL: WAELLASHEENl@PROTONMAIL.COM

QUESTIONS PRESENTED

A- Is being a stakeholder, not just a member, in an organization which
solicits donations and memberships from Judges and Attorneys a
violation of the Fourteenth Amendment and is ground for recusal of
a Visiting Judge.
B- Is Ohio Revised Code 2701.03 Unconstitutional?
C- In our case, is the Fourteenth Amendment violated when a State
Supreme Court Justice declines to recuse them self from a case in
which they have a pending Writ of Certiorari before SCOTUS
regarding a prior decision?
D- Did the Ohio Supreme Court abuse their discretion in denying a
motion to recuse, and were they prejudiced against the Plaintiff?

;

,1
i

?•

-i-

LIST OF PARTIES

-11-

RELATED CASES
“In re Disqualification of Stucki. Case number^ 21-AP-048”
Citation unavailable
JURISDICTION
The date on which the highest state court decided my case was 04/12/2021. A
copy of that decision appears at Appendix

A

No rehearing is permitted
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
OPINIONS BELOW
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and
not published;

-lii-

INDEX OF APPENDIXES

APPENDIX A Decision, Subject of this Writ
APPENDIX B Affidavit of Disqualification whose Decision is Subject of this
Writ
APPENDIX C Previously Submitted Writ (Under Consideration)
APPENDIX D Justice Refusal to recuse herself
APPENDIX E Ohio Revised Code 2701.3
APPENDIX F 28 U.S. Code § 455

-ivCONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Ohio Revised Code (O.R.C). 2701.03 (Appendix E)
“(A) If a judge of a municipal or county court allegedly is interested in a
proceeding pending before the judge, allegedly is related to or has a bias or
prejudice for or against a party to a proceeding pending before the judge or to
a party's counsel, or allegedly otherwise is disqualified to preside in a
proceeding....”

28 U.S. Code § 455 - Disqualification of justice, judge, or magistrate
judge (Appendix F)
“(a)Any justice, judge, or magistrate judge of the United States shall
disqualify himself in any proceeding in which his impartiality might
reasonably be questioned..... ”
The U. S. Constitution Fourteenth Amendments provides that no person
shall be deprived of life, liberty, or property, without Due Process of Law
nor deny any person within its jurisdiction the equal protection of the laws
and that no state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States

-v-

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

- In Rippo v. Baker, 137 S. Ct. 905 (2017).

2

- In Tumey v. Ohio, 273 U.S. 510 (1927)

3

- InWard v. Village of Monroeville, 409 U.S. 57 (1972).

3

- In Williams v. Pennsylvania, 136 S. Ct. 1899 (2016)

4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari is issued to review the
judgment below.
STATEMENT OF THE CASE
The petitioner is involved in a divorce case. After repeated irregularities the
petitioner submitted an affidavit of disqualification to the Ohio Supreme Court
(OSC). Before the OSC issues a Judgment, the Administrative Judge reassigned the
case to a New Judge. Due to the untimely New Judge reassignment, and various
other issues the petitioner submitted a second affidavit of disqualification to
disqualify the Administrative Judge. The next morning on the OSC rejected the
petition. The petitioner filed a Writ with SCOTUS (Appendix C) challenging that
judgment. In the interim a Visiting Judge (VJ) was assigned to the case. Due to
Conflict of Interest and indiscretions by the newly appointed VJ, the Petitioner
submitted an affidavit of disqualification for the VJ (Appendix B), and requested
the recusal of the OSC Chief Justice, the only Justice who adjudicates recusals. The
OSC Chief Justice refused to recuse herself (Appendix D) and rejected the
affidavit of disqualification of the VJ; this decision is the subject of this Writ
(Appendix A).

1

A- Is being a stakeholder, not just a member, of an organization which
solicits donations and memberships from Judges and Attorneys a
violation of the Fourteenth Amendment and is ground for recusal of
a Visiting Judge.
B- Is Ohio Revised Code 2701.03 Unconstitutional?
1-We argued in our petition of disqualification (Appendix B) that the VJ was a
past president, and currently sits on multiple committees at the helm of an
organization that solicits donations and memberships from Judges and Attorneys;
we argued that the opposing counsel, whom we charged with misconduct, is an
influential local attorney. Among the evidence we provided a series of peculiar
events where by Plaintiff motions were delayed and are yet to be heard, hearing
notices doctored, and unedited hearing transcripts withheld.
2- Ohio Revised Code (ORC) 2701.03 does not provide for disqualification for
financial conflict of interest contrary to 28 U.S. Code § 455, and is therefore
unconstitutional. Assuning that the general terms “bias” and “prejudice” covers
financial conflict, then why was it named in 28 U.S. Code § 455. The people of Ohio
should not be left to the unequal interpretation/application of law. One is hard
pressed to find a single disqualification for purely financial conflict in Ohio courts
over the past century. In addition ORC 2701.03 requires evidence of “actual”,
contrary to “reasonably questioned” in 28 U.S. Code § 455, and “potential” in
SCOTUS precedent, bias and prejudice. In Rippo v. Baker, 137 S. Ct. 905 (2017).
2

f

3- 28 U.S. Code § 455 provides for disqualification of a Judge “if impartiality might
reasonably be questioned”. It also provides for disqualification if the Judge “has a
financial interest in the subject matter in controversy or in a party to the
proceeding, or any other interest that could be substantially affected by the
outcome”
4-The US Supreme Court takes financial conflict of interest very seriously. The
Supreme Court reversed the appellant's sentence, holding that a judge, whose
salary came out of fines, may not have such a substantial interest in convicting
defendants. The Court explained that “[e]very procedure which would offer a
possible temptation to the average man as a judge to forget the burden of proof... or
which might lead him not to hold the balance nice, clear, and true between the state
and the accused denies the latter due process of law”. In Turney v. Ohio, 273 U.S.
510 (1927). The Turney decision was reaffirmed, and extended, by the Supreme
Court that ruled judges did not need a direct financial interest in order to violate
due process. Rather, a violation of due process can occur even when the judge salary
does not depend on his conviction rate, if the fines assessed went towards increasing
the town's budget. In Ward v. Village of Monroeville, 409 U.S. 57 (1972).
C- In our case, is the Fourteenth Amendment violated when a State
Supreme Court Justice declines to recuse himself from a case in
which he has a pending Writ of Certiorari before SCOTUS regarding
a prior decision concerning the same case?
3

D- Did the Ohio Supreme Court abuse their discretion in denying a
motion to recuse, and were they prejudiced against the Plaintiff?
1-In Williams v. Pennsylvania, 136 S. Ct. 1899 (2016) SCOTUS established a
rule; when the Court’s due process precedents does not set forth a specific test
governing recusal, in this case of when a Judge has an opinion under review by the
US Supreme Court; the principles, on which these precedents rest, dictate the rule
that must control this case taking all the circumstances into consideration.
2-We established a history of bias and prejudice to the Plaintiff (Appendix C).
3-We argue that the Justice appointed a VG who has a financial conflict. The
Justice employed the VG for years knowing his affiliations, had the Justice
considered these affiliation a source of conflict she would not have employed him.
4-We argue that the Honorable Justice already prejudged the issue of conflict of
interest by continuously utilizing the VG over years.
5-We also argue that given the opportunity, it is unlikely that the Justice will
recognize conflict of interest even if one existed, for many reasons, an independent
observer will surmise.
6- The Honorable Justice claims no arguments or evidence were presented
(Appendix A) to support our affidavit, contrary to fact (Appendix B) reflecting
actual bias and prejudice.
7-Under the Due Process Clause there is an impermissible risk of actual bias, there
is a history of prejudice, there is evidence of ongoing bias and prejudice, and there is
4

1

' * t

no guarantee that bias and prejudice will stop. We pray to god for relieve.

CONCLUSION
The petition for a writ of certiorari should be granted for the reasons above.
Respectfully submitted,
(S) Wael Lasheen

Date:04/14/2021
No.

5

